ADDENDUM

CASE 0:20-cv-01811-ECT-ECW Doc. 17 Filed 12/28/20 Page 1 of 4
United States Court of Appeals
For The Eighth Circuit

V

Thomas F. Eagleton U.S. Courthouse
111 South 1 Oth Street. Room 24.329

St. Louis, Missouri 63102
VOICE (314) 244-2400
FAX (314) 244-2780
www.ca8.uscourts.gov

Michael E. Cans
Clerk of Court

ADDENDUM
December 28, 2020
j

Mr. Christopher Gary Baylor
Apartment 105
491 Baltimore Pike
Springfield, PA 19064
RE: 20-3685 Christopher Baylor v. Hon. Lorie Gildea, et al
Dear Mr. Baylor:
The district court clerk has transmitted a notice of appeal in this matter, and we have
docketed it under the caption and case number shown above. Please include the caption and the
case number on all correspondence or pleadings submitted to this court.
We note that this matter was not served by the district court on any other party.
Accordingly, you are notified that you are the only party to this appeal.
Your appeal is being referred to the court. A briefing schedule will not be established at
this time, and no additional pleadings are required from you. Our office will advise you of any
action taken in your case.
The court will consider the case on the original file of the district court, and you do not
need to file any additional record materials. If a transcript is required, you should contact the
court reporter at the district court and make arrangements for production and payment. If you
cannot afford a transcript and you have in forma pauperis status, you may file a motion with this
court seeking preparation of a transcript at government expense. If you do not have in forma
pauperis status and cannot afford a transcript, you must file a motion with the district court for
permission to appeal as a poor person. Please note the motions for appointment of counsel are
rarely granted in pro se civil cases.

Appellate Case: 20-3685

Page: 1

Date Filed: 12/28/2020 Entry ID: 4988547

CASE 0:20-cv-01811-ECT-ECW Doc. 17 Filed 12/28/20 Page 3 of 4
Caption For Case Number: 20-3685
Christopher Gary Baylor
Plaintiff - Appellant
V,
Lorie Skjerven Gildea, in her personal capacity, Ramsey County Minnesota Supreme Court:
ChiefJustice; Susan Segal, in her personal capacity, Ramsey County Minnesota Appellate Court
Chief Judge; Tim Walz, in his personal capacity, Elected Governor of the Entire State of
Minnesota
Defendants - Appellees

;

Appellate Case: 20-3685

Page: 3

Date Filed: 12/28/2020 Entry ID: 4988547

CASE 0:20-cv-01811-ECT-ECW Doc. 17 Filed 12/28/20 Page 4 of 4
7.V

Addresses For Case Participants: 20-3685

:

Mr. Christopher Gary Baylor
Apartment 105
491 Baltimore Pike
Springfield, PA 19064

:

Ms. Kate M. Fogarty <
U.S. DISTRICT COURT
District of Minnesota
202 U.S. Courthouse ,
300 S. Fourth Street
Minneapolis, MN 55415

:

•:

:

Appellate Case: 20-3685

Page: 4

Date Filed: 12/28/2020 Entry ID: 4988547

